2311 Douglas Street
Omaha, Nebraska 68102-1214

Q@QCKLE

Legal Briefs

Est. 1923
1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850 No.
MICHAEL BINDAY,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
AFFIDAVIT OF SERVICE

E-Mail Address:
contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 27th day of August, 2019, send out
from Omaha, NE 1 package(s) containing 3 copies of the PETITION FOR WRIT OF CERTIORARI in the above entitled
case. All parties required to be served have been served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
DAVID W. SHAPIRO
THE NORTON LAW FIRM LLP
299 Third St.
Suite 106
Oakland, CA 94607
510-906-4900
dshapiro@nortonlaw.com
Counsel for Petitioner

Subscribed and sworn to before me this 27th day of August, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

sone, w C Ellie Qudiow-h, Chl

My Commission Expires Nov 24, 2020
Notary Public

 

38453
Noel J. Francisco

Solicitor General of the United States
U.S. Department of Justice

Room 5616

950 Pennsylvania Avenue, N.W.
Washington, DC 20530-0001

(202) 514-2217
supremectbriefs@usdoj.gov
